It

No:

t CD

In the
Supreme Court of the United States

FILED
OCT 01 WD
SUpl?EEMEFClOUPTLuf8K

JONATHAN ORTIZ TORRES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Jonathan Ortiz-Torres
Register Number: 34557-069
Coleman Medium FCI
P.O. Box 1032
Coleman, FL 33521

RECEIVED
OCT 1 6 2020

QUESTIONS PRESENTED FOR REVIEW
Should a writ of certiorari should be granted to determine if trial counsel renders
ineffective assistance when he fails to advise his client that the government could
request a sentence above that recommended in a plea agreement thus rendering the
plea involuntary.
Should a writ of certiorari be granted to determine if a plea is constitutionally valid
when the same is entered to an offense the defendant did not commit.
Should a writ of certiorari should be granted to determine if counsel renders
ineffective assistance by permitting Ortiz-Torres to plead guilty to a Title 18
U.S.C. § 924(c)(1)(a) and Title 18 U.S.C. § 924(j) simultaneously on the same
charged offense.
Should a writ of certiorari be granted to determine if a conviction for a Title 18
U.S.C. § 924(j) must be vacated in light of this court’s decision in Sessions v.
Dimaya, 2018 U.S. Lexis 2497 (2018).

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
First Circuit and the United States District Court for the District Court Puerto Rico.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

in

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

vi

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and Regulations
Involved.........................................................................................

2

Statement of the Case

4

Reasons for Granting the Writ

6

Should a writ of certiorari should be granted to determine if trial counsel
renders ineffective assistance when he fails to advise his client that the
government could request a sentence above that recommended in a plea
agreement thus rendering the plea involuntary.........................................

11

Should a writ of certiorari be granted to determine if a plea is
constitutionally valid when the same is entered to an offense the defendant
did not commit......................................................................................... .

12

Should a writ of certiorari should be granted to determine if counsel renders
ineffective assistance by permitting Ortiz-Torres to plead guilty to a Title
18 U.S.C. § 924(c)(1)(a) and Title 18 U.S.C. § 924(j) simultaneously on the
same charged offense.................................................................................

16

Should a writ of certiorari be granted to determine if a conviction for a Title
18 U.S.C. § 924(j) must be vacated in light of this court’s decision in
Sessions v. Dimaya, 2018 U.S. Lexis 2497 (2018).......................................

18

IV

Conclusion

24

Ortiz-Torres v. United States, 19-1915 (First Circuit 07/09/2020)

A-l

Ortiz-Torres v. United States, 19-1031 (USDC PR May 13, 2019)

B-l

V

TABLE OF AUTHORITIES
Boykin v. Ala., 395 U.S. 238 (1969)

16

Frazer v. United States, 18 F.3d 778 (9th Cir. 1994)

15

Gady v. Linahan, 780 F.2d 935 (11th Cir. 1986)

12, 15, 16

Golicov v. Lynch, 837 F.3d 1065 (10th Cir. 2016)

19, 20

Henderson v. Morgan, 426 U.S. 637 (1976)

12, 15

Hill v. Lockhart, 474 U.S. 52 (1985)

12

In re Hubbard, 825 F.3d 225 (4th Cir. 2016)

20

Libretti v. United States, 516 U.S. 29 (1995)

12

North Carolina v. Alfred, 400 U.S. 25 (1970)

12

Ovalles v. United States, 861 F.3d 1257 (11th Cir. 2017)

21

Rutledge v. United States, 517 U.S. 292 (1996)

17

Santos v. Kolb, 880 F.2d 941 (7th Cir. 1989)

13

Smith v. O'Grady, 312 U.S. 329 (1941)

12

Stano v. Dugger, 921 F.2d 1125 (11th Cir. 1991)

15

United States v. Armour, 840 F.3d 904 (7th Cir. 2016)

,22

United States v. Benally, 843 F.3d 350 (9th Cir. 2016)

18, 19

United States v. Broce, 488 U.S. 563 (1989)
United States v. Cardena, 842 F.3d 959 (7th Cir. 2016)
United States v. Catalan-Roman, 585 F.3d 453 (1st Cir. 2009)

VI

12
21,23
17

United States v. Davis, 139 S. Ct. 2319 (2019)

9

United States v. Eshetu, 863 F.3d 946 (D.C. Cir. 2017)

21

United States v. Garcia, 857 F.3d 708 (5th Cir. 2017)

21

United States v. Hill, 832 F.3d 135 (2d Cir. 2016)

,21

United States v. Jimenez-Torres, 435 F.3d 3 (1st Cir. 2006)

17

United States v. Olano, 507 U.S. 725 (1993)

,24

United States v. Ortiz-Torres, 873 F.3d 346 (1st Cir. 2017)

9

United States v. Prickett, 839 F.3d 697 (8th Cir. 2016)

,21

United States v. Salas, 2018 WL 2074547__F.3d___ (10th Cir. 2018)

23

United States v. Serafin, 562 F.3d 1105 (10th Cir. 2009)

20

United States v. Taylor, 814 F.3d 340 (6th Cir. 2016)

21

United States v. Taylor, 848 F.3d 476 (1st Cir. 2017)

,22

United States v. Vivas-Ceja, 808 F.3d 719 (7th Cir. 2015)

,21

United States v. Webb, 217 F. Supp. 3d 381 (D. Mass. Nov. 9, 2016)

,23

Statutes
18U.S.C. § 16(b)

19

18U.S.C. §922

,4

18U.S.C. § 922(1)

,4

18U.S.C. § 922(q)

4

18U.S.C. §922(x)

5

vii

18 U.S.C. § 924(c)

16

18 U.S.C. § 924(c)(1)(A)

8, 9, 18

18 U.S.C. § 9240

15

18 U.S.C. § 9240(1)

17

18 U.S.C. §929

3

18 U.S.C. §931

5

28 U.S.C. § 1254(1)

,2,3

46 USCS §§ 70501

7

Supreme Court Rule 10

10, 11

Supreme Court Rule 10.1(a)

11

Vlll

No:

In the
Supreme Court of the United States

JONATHAN ORTIZ TORRES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Jonathan Ortiz Torres, the Petitioner herein, respectfully prays that a writ of
certiorari is issued to review the judgment of the United States Court of Appeals
for the First Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the First Circuit, whose judgment is
herein sought to be reviewed, is unpublished United States v. Ortiz-Torres, 191915 (1st Cir. July 8, 2020) is reprinted in the separate Appendix A to this Petition.
The order of the District Court denying the Title 28 U.S.C. § 2255 was entered
on May 13, 2019, and is reprinted in the separate Appendix B to this Petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on July 8, 2020. The
Jurisdiction of this Court is invoked under Title 28 U.S.C. § 1654(a) and 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury... nor shall any person
be subject for the same offense to be twice put in jeopardy of life or limb,
nor shall be compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process of law....
Id. Fifth Amendment U.S. Constitution
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and District wherein the crime
shall have been committed, which District shall have been previously
2

ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the sentence
was imposed in violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which imposed the sentence
to vacate, set aside or correct the sentence.
$ $ $ $ $

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing thereon,
determine the issues and make findings of fact and conclusions of law with
respect thereto.
Id. Title 28 U.S.C. § 2255.
Title 18 U.S.C. § 924(c)(3)(B) provides in relevant part:
(a)
(1) Except as otherwise provided in this subsection, subsection (b), (c), (f),
or (p) of this section, or in section 929 [18 USCS § 929], whoever—
(A) knowingly makes any false statement or representation with respect
to the information required by this chapter [18 USCS §§921 et seq.] to
be kept in the records of a person licensed under this chapter [18 USCS
§§921 et seq.] or in applying for any license or exemption or relief from
disability under the provisions of this chapter [18 USCS §§ 921 et seq.];

3

(B) knowingly violates subsection (a)(4), (f), (k), or (q) of section 922
[18 USCS § 922];
(C) knowingly imports or brings into the United States or any possession
thereof any firearm or ammunition in violation of section 922(1) [18
USCS § 922(1)]; or
(D) willfully violates any other provision of this chapter [18 USCS §§
921 et seq.], shall be fined under this title, imprisoned not more than five
years, or both.
(2) Whoever knowingly violates subsection (a)(6), (d), (g), (h), (i), (j), or (o)
of section 922 [18 USCS § 922] shall be fined as provided in this title,
imprisoned not more than 10 years, or both.
(3) Any licensed dealer, licensed importer, licensed manufacturer, or licensed
collector who knowingly—
(A) makes any false statement or representation with respect to the
information required by the provisions of this chapter [18 USCS §§ 921
et seq.] to be kept in the records of a person licensed under this chapter
[18 USCS §§921 et seq.], or
(B) violates subsection (m) of section 922 [18 USCS § 922],
shall be fined under this title, imprisoned not more than one year, or both.
(4) Whoever violates section 922(q) [18 USCS § 922(q)] shall be fined under
this title, imprisoned for not more than 5 years, or both. Notwithstanding any
other provision of law, the term of imprisonment imposed under this paragraph
shall not run concurrently with any other term of imprisonment imposed under
any other provision of law. Except for the authorization of a term of
imprisonment of not more than 5 years made in this paragraph, for the purpose
of any other law a violation of section 922(q) [18 USCS § 922(q)] shall be
deemed to be a misdemeanor.
(5) Whoever knowingly violates subsection (s) or (t) of section 922 [18 USCS §
922] shall be fined not more than $1,000, imprisoned for not more than 1 year,
or both.

4

(6)
(A)
(i) A juvenile who violates section 922(x) [18 USCS § 922(x)] shall be
fined under this title, imprisoned not more than 1 year, or both, except
that a juvenile described in clause (ii) shall be sentenced to probation on
appropriate conditions and shall not be incarcerated unless the juvenile
fails to comply with a condition of probation.
(ii) A juvenile is described in this clause if—
(I) the offense of which the juvenile is charged is possession of a
handgun or ammunition in violation of section 922(x)(2); and
(II) the juvenile has not been convicted in any court of an offense
(including an offense under section 922(x) [18 USCS § 922(x)] or a
similar State law, but not including any other offense consisting of
conduct that if engaged in by an adult would not constitute an offense)
or adjudicated as a juvenile delinquent for conduct that if engaged in
by an adult would constitute an offense.
(B) A person other than a juvenile who knowingly violates section 922(x)
[18 USCS § 922(x)]—
(i) shall be fined under this title, imprisoned not more than 1 year, or
both; and
(ii) if the person sold, delivered, or otherwise transferred a handgun or
ammunition to a juvenile knowing or having reasonable cause to know
that the juvenile intended to carry or otherwise possess or discharge or
otherwise use the handgun or ammunition in the commission of a crime
of violence, shall be fined under this title, imprisoned not more than 10
years, or both.
(7) Whoever knowingly violates section 931 [18 USCS § 931] shall be fined
under this title, imprisoned not more than 3 years, or both.
(b) Whoever, with intent to commit therewith an offense punishable by
imprisonment for a term exceeding one year, or with knowledge or
reasonable cause to believe that an offense punishable by imprisonment for
a term exceeding one year is to be committed therewith, ships, transports, or
5

receives a firearm or any ammunition in interstate or foreign commerce shall
be fined under this title, or imprisoned not more than ten years, or both.
(c)(1)(A) Except to the extent that a greater minimum sentence is otherwise
provided by this subsection or by any other provision of law, any person
who, during and in relation to any crime of violence or drug trafficking crime
(including a crime of violence or drug trafficking crime that provides for an
enhanced punishment if committed by the use of a deadly or dangerous
weapon or device) for which the person may be prosecuted in a court of the
United States, uses or carries a firearm, or who, in furtherance of any such
crime, possesses a firearm, shall, in addition to the punishment provided for
such crime of violence or drug trafficking crime—
(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment
of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment
of not less than 10 years.
(B) If the firearm possessed by a person convicted of a violation of this
subsection—
(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic
assault weapon, the person shall be sentenced to a term of imprisonment
of not less than 10 years; or
(ii) is a machinegun or a destructive device, or is equipped with a firearm
silencer or firearm muffler, the person shall be sentenced to a term of
imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that occurs after a prior
conviction under this subsection has become final, the person shall—
(i) be sentenced to a term of imprisonment of not less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muffler, be sentenced to
imprisonment for life.
6

(D) Notwithstanding any other provision of law
(i) a court shall not place on probation any person convicted of a
violation of this subsection; and
(ii) no term of imprisonment imposed on a person under this subsection
shall run concurrently with any other term of imprisonment imposed on
the person, including any term of imprisonment imposed for the crime
of violence or drug trafficking crime during which the firearm was
used, carried, or possessed.
(2) For purposes of this subsection, the term “drug trafficking crime”
means any felony punishable under the Controlled Substances Act (21
U.S.C. 801 et seq.), the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.].
(3) For purposes of this subsection the term “crime of violence” means an
offense that is a felony and—
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course of
committing the offense.
Title 18 USCS §924.
STATEMENT OF THE CASE
On May 27, 2014, Ortiz-Torres pled guilty according to a plea agreement to
Count Two of the Superseding Indictment which charged him with possessing,
brandishing, discharging, using, and carrying firearms during and concerning a
crime of violence in violation of 18 U.S.C. §§ 924(c)(1)(A) and (j). (Cr.Dkt. 606)
The plea agreement included a proposed advisory guideline calculation, whereby

7

the parties agreed the base offense level was 43. (Cr.Dkt. 607) After applying a
three-level reduction for acceptance of responsibility, the parties stipulated a total
offense level of 40. Although the parties did not stipulate a Criminal History
Category (“CHC”), the plea agreement indicated a CHC of I would yield an
advisory guideline range of 292-365 months. (Cr.Dkt. 607). The Presentence
Report’s (“PSR’s”) advisory guideline calculation mirrored that of the plea
agreement. (Cr.Dkt. 639, pp. 9-10). Given a total offense level of 40 and a CHC of
I, the PSR calculated Ortiz-Torres’ advisory guideline range to be 292-365 months.
On October 14, 2015, the district court held Ortiz-Torres’ sentencing hearing.
(Cr.Dkt. 660). The government explained that the proper sentence given these
circumstances would be a minimum of 500 months. Id. at 41-42. Counsel for
Ortiz-Torres reiterated that Co-Defendant Santana-Espinet was the mastermind of
the plan with a criminal record and received a 380-month sentence, noting the
court needed to consider disparities at sentencing. Id. at 44. The court’s advisory
guideline range of 292-365 mirrored that of both the plea agreement and the PSR.
Id. at 51. The court explained it must consider the § 3553(a) factors to determine a
sentence that is sufficient but not greater than necessary. Id. After recognizing
Ortiz-Torres’ prompt acceptance of responsibility, the court explained a life
sentence was not warranted. Id. at 56. A sentence of at least 500 months was
warranted. Id. Consequently, the court determined a 560-month sentence was

8

sufficient but not greater than necessary. Id. at 57. Ortiz-Torres appealed, however,
after considering the arguments raised (whether the government breached the plea
agreement and whether the sentence imposed was reasonable, neither issue raised
in the 2255), a panel of this court affirmed the sentence and conviction. United
States v. Ortiz-Torres, 873 F.3d 346 (1st Cir. 2017). A Writ of Certiorari was not
sought. On his 2255, Ortiz-Torres alleged that 1) his plea was involuntary since
counsel had rendered ineffective assistance by not explaining that the government
could request a sentence above the recommended range, 2) that counsel was
ineffective because he failed to clarify that Ortiz-Torres was sentenced to an
offense for which he did not plead guilty to, 3) that counsel was ineffective when
he allowed Ortiz-Torres to plead guilty to a § 924(c)(1)(A) and § 924(j) offense
simultaneously, 4) that his conviction for the § 924(j) must be vacated in light of
Sessions v. Dimaya, 2018 U.S. Lexis 2497 (2018), and 5) that his conviction for §
924(c)(1)(A) and (j) must be vacated in light of United States v. Davis, 139 S. Ct.
2319 (2019). (Cv.Dkt. 1). After three requested extensions, the government’s
response was filed. (Cv.Dkt. 8). Without allowing a reply from Ortiz-Torres, the
District Court denied the § 2255 and the COA. (Cv.Dkt. 9, 10). Ortiz-Torres
proceeded on reconsideration, arguing that Rule 5, of Title 28 U.S.C. § 2255,
directed a reply, however, once again after the government response and without a

9

reply, the Court denied the Rule 59 as well. (Cv.Dkt. 12, 16-17). A certificate of
appealability was also denied.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE ELEVENTH
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a)When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)

10

QUESTIONS PRESENTED
1. A writ of certiorari should be granted to determine if trial counsel renders
ineffective assistance when he fails to advise his client that the government
could request a sentence above that recommended in a plea agreement thus
rendering the plea involuntary
During plea negotiations, Ortiz-Torres and the government entered into a Rule
11(c)(1)(A) agreement to avoid a trial. (Doc. 607). The agreement stipulated that
Ortiz-Torres sentencing recommendation, based on his criminal history score,
would be calculated at 292-365 months incarceration. (Doc. 607 at 4).
Notwithstanding the language on the agreement, that the government reserves the
right to argue for a sentence above the suggested range, Ortiz-Torres was assured
that the sentence would be determined within the 292-365 range. (See Appendix
A). Not only was Ortiz-Torres mislead into pleading guilty based on the terms of
the agreement, but he also waived all his constitutional claims as well. {Id.).
Although the plea agreement threats were made to Ortiz-Torres, the agreement did
not cover assurances made to Ortiz-Torres by counsel. (Doc. 607 at 4, 12, and
Exhibit A, Title 28 U.S.C. § 2255). Ortiz-Torres was misled into entering into the
plea agreement, thus rendering the plea involuntary. “The Fourteenth Amendment
Due Process Clause requires that a plea of guilty be knowingly and voluntarily
entered because it involves a waiver of a number of the defendant’s constitutional
rights.” Gady v. Linahan, 780 F.2d 935, 943 (11th Cir. 1986), (citation and
footnote omitted). A plea of guilt “cannot support a judgment of guilt unless it was
11

voluntary in a constitutional sense.” Henderson v. Morgan, 426 U.S. 637, 644-45
(1976). Above from the obvious involuntariness of a coerced plea, the Supreme
Court has identified two other ways that a defendant’s guilty plea may be
involuntary in a constitutional sense:
“A plea may be involuntary either because the accused does not understand the
nature of the constitutional protections he is waiving, see, e.g. Johnson v.
Zerbst, 58 S.Ct. 1019, 1023, or because he has such an incomplete
understanding of the charges that his plea cannot stand as an intelligent
admission of guilt without adequate notice of the nature of the charge against
him, or proof that he in fact understood the charges, the guilty plea cannot be
voluntary in the latter sense. Smith v. O’Grady, 312 U.S. 329 (1941).”
Id. Henderson, 426 U.S. at 645, n.13.
Ineffective assistance claims which site erroneous advice by counsel
encouraging the Defendant to plead guilty or not plead guilty to the Prosecution’s
charges necessarily implicate the principle that guilty pleas must be voluntarily and
intelligently made. See North Carolina v. Alfred, 400 U.S. 25 (1970). This Court
addressed this issue 'mHill v. Lockhart, 474 U.S. 52 (1985) in which it formulated
a merger in the Strickland test for ineffective assistance and the traditional
requirements for a valid guilty plea. See also See also Libretti v. United States, 516
U.S. 29 (1995); United States v. Broce, 488 U.S. 563 (1989) (“[a] failure by
Counsel to provide advice may form the basis of a claim of ineffectiveness of
counsel, but absent such a claim it cannot serve as the predicate for setting aside
such a plea”); Santos v. Kolb, 880 F.2d 941 (7th Cir. 1989) in which the Seventh

12

Circuit explained that where an ineffective assistance claim concerns the
Defendant’s guilty plea, “the key to whether Defense Counsel has failed to provide
effective assistance is whether his shortcomings resulted in an involuntary or
unintelligent plea.” In the instant case, counsel’s failure to explicitly advise his
client of the repercussions of the government’s option to request a sentence above
the agreed range was the equivalent of a plea that Ortiz-Torres would not have
accepted. (Id.). In sum, counsel’s failure to advise Ortiz-Torres of all the “critical
options” the government may exercise if he pleads guilty, has not only caused his
counsel to render ineffective assistance violating Ortiz-Torres Sixth Amendment
right to the effective assistance of counsel but has also caused his Due Process
rights to be violated as well, rendering his plea of guilt not knowingly and
voluntarily provided. In essence, the plea agreement that was supposed to “assist”
Ortiz-Torres, served no purpose whatsoever. As Ortis-Torres presented in the
affidavit, had counsel properly explained the implications of the government’s
options, Ortiz-Torres would not have pleaded guilty and would have proceeded to
trial.

13

2. Should a writ of certiorari be granted to determine if a plea is
constitutionally valid when the same is entered to an offense the defendant did
not commit.
As a result of the plea agreement, Ortiz-Torres was led to believe that his
sentence would be based on a violation of Title 18 U.S.C. § 924(c)(1)(A) for a
Title 18 U.S.C. § 1951(a) violation. (Doc. 607 at 2). During the change of plea
hearing, the following colloquy occurred:
Change of Plea Hearing - [1] Jonathan Ortiz-Torres possess, brandish,
discharge, use and carry firearms as defined in 18 U.S. Code, Section 921;
specifically one 9mm caliber Smith and Wesson pistol, Serial No. VYK454; as
well as one .45 Smith and Wesson pistol Serial No. TBT1631, during and in
relation to a crime of violence for which you may be prosecuted in the court of
the United States, specifically interference of commerce by robbery in
violation of 18 U.S. Code, Section 1951, which was the count — the Count 1 of
the superseding indictment which is incorporated by reference; and in the
course of that crime you unlawfully killed Felix Rodriguez-Gomez and
Kenneth Omar Betancourt with malice aforethought through the use of a
firearm, which is the murder as defined in 18 U.S. Code, Section 111 - no —
1111 by knowingly, willfully, deliberately, maliciously and with premeditation
shooting the Department of Natural Resources - Commonwealth Department
Rangers Felix Rodriguez-Gomez and Kenneth Omar Betancourt with a firearm
thus causing their death in violation of 18 U.S. Code. Section 2, 924(c): and and that is - well, Count 2 of the superseding indictment, in essence.
Do you understand that this is the offense to which you will be entering a
guilty plea?
Id. (Doc. 610 at 20).
The plea was accepted for a violation of Title 18 U.S.C. § 924 (c), as per the
plea agreement. This was Ortiz-Torres’ understanding. (Exhibit A). However, at
the time of sentencing, the government requested the court impose and did impose,

14

a sentence for a violation of 18 U.S.C. S 9240). an offense for which Ortiz-Torres
did n to plead guilty to, nor an offense that the court had not entered judgment on
during the change of plea. In essence, the court has sentenced Ortiz-Torres to an
offense he did not plead guilty to, thus rendering his plea involuntary.
a. Ortiz-Torres plea to 18 U.S.C. § 924(il was Involuntary.
“The Due Process Clause requires that a plea of guilty be knowingly and
voluntarily entered because it involves a waiver of a number of the defendant’s
constitutional rights.” Gaddy, 780 F.2d at 943. A plea of guilt “cannot support a
judgment of guilt unless it was voluntary in a constitutional sense.” Henderson v.
Morgan, 426 U.S. 637, 644-45 (1976). As the Supreme Court has instructed, the
voluntariness requirement is not satisfied unless the defendant receives real notice
of the true nature of the charged crime.
“The defendant receives real notice of the nature of the charges when he has
been informed of both the nature of the charges to which he is pleading guilty
represents, in essence, an admission as to each and every element ofthe offense. ”
Id. at 780 F.2d at 943-44 (citation omitted)

See also Frazer v. United States, 18 F.3d 778 (9th Cir. 1994); Stano v. Dugger,
921 F.2d 125, 1142 (11th Cir. 1991) (en banc), [“that prior to entering a guilty plea,
a defendant must receive information on the “nature of the offense and the
elements of the crime.”] Id. “At the very least, due process requires that the
defendant, prior to tendering a plea of guilt, receives a description of the “elements
of the charged offense...” Id. at 945 (citation omitted).
15

Ortiz-Torres due process rights are violated and counsel provides ineffective
assistance when she allows the court to sentence Ortiz-Torres to an offense he had
not provided a guilty plea to. As the Supreme Court affirmed the decision of the
United States Court of Appeals for the Second Circuit when it determined that
Henderson’s plea could not have been voluntary thus violating his “due process of
law, since the defendant, did not receive adequate notice of the offense.” Id.
Henderson at 108. As in Henderson, Ortiz-Torres was never advised by his
counsel, by the Government, or by the Court, that he would be sentenced to Title
18 U.S.C. § 924(j) offense. The court accepted a plea for an 18 U.S.C. § 924(c)
offense. Failing to advise Ortiz-Torres of the “critical elements” or the correct
offense to which he is pleading in an offense, cannot be held to “harmless error”
review. Id. Henderson at 117. The choice to plead guilty must be the defendant’s,
it is he who must be informed of the consequences, [elements] of his plea that he
waives when he pleads, Boykin v. Ala., 395 U.S. 238 (1969), and it is on his
admission [“waiving the “critical elements”] that his conviction will rest. Id. .
Henderson, at 118.
3. Should a writ of certiorari should be granted to determine if counsel
renders ineffective assistance by permitting Ortiz-Torres to plead guilty to a
Title 18 U.S.C. § 924(c)(1)(a) and Title 18 U.S.C. § 924(j) simultaneously on
the same charged offense.
In this case, the facts are straight-forward. Ortiz-Torres was sentenced under a
violation of Title 18 U.S.C. § 924(c), the lesser-included offense of Title 18 U.S.C.
16

§ 924(j). Counsel at all times during the change of plea and before sentencing had
the obligation to advise the court that the court could not impose a sentence on
both offenses as charged in the same indictment. Ortiz-Torres was convicted and
sentenced, charging violations of 19 U.S.C. §§ 924(c) and 924(j) respectively,
arose from the same predicate facts. Those circumstances place the charges
squarely within the Supreme Court’s holding in Rutledge v. United States, 517
U.S. 292, 307 (1996), setting forth the “traditional rule” that “whenever a
defendant is tried for greater and lesser offenses in the same proceeding,...
neither legislatures nor courts have found it necessary to impose multiple
convictions.” See also United States v. Parkes, 497 F.3d 220, 234(2nd Cir.
2007) (remand for resentencing in Hobbs Act/murder case because “18 U.S.C. §
924(c) is a lesser included offense of 18 U.S.C. § 924(j)(l) [and] the district court
erred by imposing sentences on both.”) In United States v. Catalan-Roman, 585
F.3d 453, 472 (1st Cir. 2009), following the government’s “sensible concession,
the First Circuit ratified its holding in United States v. Jimenez-Torres, 435 F.3d 3,
10 (1st Cir. 2006), that a § 924(c)(1) offense would be a lesser-included offense of
a § 924(j)(l) offense when premised on the same predicate facts. Counsel at all
times had the obligation to advise the court that Ortiz-Torres could not have been
sentenced to both offenses as entered in this case. The plea agreement referenced
both offenses, a clear violation of the Court’s reasoning in Catalan-Roman.

17

4. Should a writ of certiorari be granted to determine if a conviction for a
Title 18 U.S.C. § 924(j) must be vacated in light of this court’s decision in
Sessions v. Dimaya, 2018 U.S. Lexis 2497 (2018).
As presented herein, on May 27, 2014, Ortiz-Torres pled guilty according to a
plea agreement to Count Two of the Superseding Indictment, which charged him
with possessing, brandishing, discharging, using and carrying firearms during and
in relation to a crime of violence in violation of 18 U.S.C. §§ 924(c)(1)(A) and (j).
(Doc. 607). The charge was premised on a violation of Title 18 U.S.C. § 1951
resulting in murder in violation of Title 18 U.S.C. § 1111. (Doc. 215). On April
17,2018, the Supreme Court’s decision in Dimaya, determined that the definition
of “crime of violence” in Title 18 U.S.C. § 16 was unconstitutionally vague
striking down the statute in its entirety. Congress uses the identical phrase “crime
of violence” similarly elsewhere in Title 18 U.S.C. § 924(c). The Courts have long
required Courts to interpret Title 18 U.S.C. § 924(c) utilizing the categorical
approach. See United States v. Benally, 843 F.3d 350, 352 (9th Cir. 2016).
Congress’ language in Title 18 U.S.C. § 924(c) only penalizes those who
possess a firearm in furtherance of some crimes. The Courts’ approach to deciding
which crimes mean that the predicate to a § 924(c) conviction must always be “a
crime of violence” regardless of how the particular defendant might commit the
crime and regardless of whether a firearm is possessed in furtherance of that crime.
A crime cannot be categorically considered a “crime of violence” if the statute of

18

conviction punishes any conduct not encompassed by the statutory definition of a
crime of violence. {See Benally, 843 F.3d at 352).
In Dimaya, the Supreme Court held:
Section 16(b) has the same two features that conspired to make the ACCA’s
residual clause unconstitutionally vague. It too requires a Court to picture the
kind of conduct that the crime involves in the ordinary case, and to judge
whether that abstraction presents some not-well-specified-yet-sufficientlylarge degree of risk. The result is that Section 16(b) produces, just as the
ACCA’s residual clause did, more unpredictability and arbitrariness than the
due process clause tolerates.
Id. Dimaya, at 11.
Ortiz-Torres cannot imagine how § 924 textually identical to § 16(b) and also
applied by using the categorical approach could be salvaged.
a. Section 924(c)(3)(B) is unconstitutionally vague
Section 924(c)(3) defines the term “crime of violence” as either a felony that
“has as an element the use, attempted use, or threatened use of physical force
against the person or property of another” or a felony “that by its nature, involves a
substantial risk that physical force against the person or property of another may be
used in the course of committing the offense.” In Dimaya, the Supreme Court held
that 18 U.S.C. § 16(b)’s definition of a “crime of violence” is unconstitutionally
vague in light of its reasoning in Johnson, which invalidated the similarly worded
residual definition of a “violent felony” in the Armed Career Criminal Act
(ACCA); see also Golicov v. Lynch, 837 F.3d 1065, 1072 (10th Cir. 2016) (ruling

19

that § 16(b) “must be deemed unconstitutionally vague in light of Johnson”). The
Dimaya Court explained that the same two features rendered the clauses
unconstitutionally vague: they “‘require[] a court to picture the kind of conduct
that the crime involves in “the ordinary case,” and to judge whether that
abstraction presents’ some not-well-specifled-yet-sufficiently-large degree of risk.”
Dimaya, at 1216, (quoting Johnson, 135 S. Ct. at 2557). The Court also rejected
several reasons for distinguishing § 16(b) from the ACCA, namely that § 16(b)
requires a risk that force is used in the course of committing the offense, focuses
on the use of physical force rather than physical injury, does not contain a
confusing list of enumerated crimes, and does not share the ACCA’s history of
interpretive failures. Id. at 1239. Ortiz-Torres argues that § 924(c)(3)(B)’s
definition of a “crime of violence,” which is identical to § 16(b)’s,2is likewise
unconstitutionally vague. Indeed, other courts have previously noted the similarity
between the two provisions and consequently held that “cases interpreting [§
16(b)] inform [their] analysis” when interpreting § 924(c)(3)(B). United States v.
Serafin, 562 F.3d 1105, 1108 & n.4 (10th Cir. 2009). Other circuits interpret §
16(b) and § 924(c)(3)(B) similarly, as well. See In re Hubbard, 825 F.3d 225, 230
n.3 (4th Cir. 2016) (“[T]he language of § 16(b) is identical to that in §
924(c)(3)(B), and we have previously treated precedent respecting one as
controlling analysis of the other.”). The Seventh Circuit has faced the same

20

scenario that we face now: it ruled that § 16(b) was unconstitutionally vague in
United States v. Vivas-Ceja, 808 F.3d 719 (7th Cir. 2015), and then addressed the
constitutionality of § 924(c)(3)(B) in United States v. Cardena, 842 F.3d 959 (7th
Cir. 2016). In Cardena, the Seventh Circuit ruled that § 924(c)(3)’s residual clause
was “the same residual clause contained in [§ 16(b)]” and accordingly held that “§
924(c)(3)(B) is also unconstitutionally vague.” Cardena, 842 F.3d at 996. Other
circuits have upheld § 924(c)(3)(B)’s constitutionality, but they were not faced, as
Ortiz-Torres is here, with binding authority holding § 16(b) unconstitutional. See
United States v. Garcia, 857 F.3d 708, 711 (5th Cir. 2017); United States v.
Eshetu, 863 F.3d 946, 955 (D.C. Cir. 2017); Ovalles v. United States, 861 F.3d
1257, 1265 (11th Cir. 2017); United States v. Prickett, 839 F.3d 697, 699 (8th Cir.
2016); United States v. Hill, 832 F.3d 135, 150 (2d Cir. 2016); United States v.
Taylor, 814 F.3d 340, 379 (6th Cir. 2016). For the most part, the grounds for those
decisions apply equally to § 16(b) and mirror the distinctions between the ACCA’s
residual clause and § 16(b) that were rejected in Dimaya. In Dimaya, this Court
rejected several reasons urged by the government for distinguishing § 16(b) from
ACCA including that a risk that force is used in the course of committing the
offense; that is focused on the use of physical force rather than a physical injury;
that it does not contain a confusing list of enumerated crimes; and that it does not

21

share ACCA’s history of interpretive failures. Id. at *12-16.2 As Judge Talwani
explained in United States v. Herr, No. 16-CR-10038-IT, 2016 WL 6090714, at *1
(D. Mass. Oct. 18, 2016) where she found the residual clause under § 924(c)(3)(B)
unconstitutional in a murder for hire case, “[b]oth the ACCA and 18 U.S.C. §
924(c)(3)(B) thus direct judges to combine the indeterminacy inherent to the
categorical approach with the indeterminacy inherent to standards such as
‘substantial risk,’ and thereby employ a doubly indeterminate analysis that the
Supreme Court has specifically addressed and foreclosed. Thus the analytical
framework the court must use to determine whether a crime is a crime of violence
under 18 U.S.C. § 924(c)(3)(B)’s residual clause is the one Johnson //disallows.”
See also United States v. Armour, 840 F.3d 904, 908 (7th Cir. 2016) (assuming that
Johnson applies to § 924(c)(3)(B)). The First Circuit has not yet addressed this
question. See United States v. Taylor, 848 F.3d 476, 491 (1st Cir. 2017) (declining
to resolve whether the § 924(c)(3) residual clause is unconstitutionally vague).

2 In litigating Johnson, the Government, through the Solicitor General, agreed that
the phrases at issue in Johnson and here poses the same problem. Upon
recognizing that the definitions of a “crime of violence” in both § 924(c)(3)(B) and
§ 16(b) are identical, the Solicitor General stated: Although Section 16 refers to the
risk that force will be used rather than that injury will occur, it is equally
susceptible to petitioner’s central objection to the residual clause: Like the ACCA,
Section 16 requires a court to identify the ordinary case of the commission of the
offense and to make a commonsense judgment about the risk of confrontations and
other violent encounters. Johnson v. United States, S. Ct. No. 13-7120,
Supplemental Brief of Respondent United States at 22-23 (available 2015 WL
1284964, at *22-23 (2015)).
22

Given the decision in Dimaya, this Court too must find that § 924(c)(3)(B)’s
residual clause to categorize a predicate conviction as a “crime of violence” also
violate due process as other Circuits have found. See Cardena, 842 F.3d 959
(striking down § 924(c)(3)’s residual clause as it was the same as § 16(b) which the
Circuit previously struck down in United States v. Vivas-Ceja, 808 F.3d 719 (7th
Cir. 2014)); United States v. Salas, 2018 WL 2074547__F.3d___ (10th Cir. 2018)
(April 17, 2018) (finding § 924(c)(3)’s residual clause unconstitutionally vague).
b. Ortiz-Torres’ claim could not be waived.
In anticipation that the government will argue a procedural waiver, OrtizTorres addresses the claim head-on. The First Circuit has routinely found that
Johnson claims are not barred by procedural default for similar reasons as such
default can be overcome by cause and prejudice. See, e.g., United States v. Franco,
No. 11-10228, 2018 U.S. Dist. LEXIS 33169 (D. Mass. Mar. 1, 2018); Cruz v.
United States, No. 09-10104-RWZ, 2017 U.S. Dist. LEXIS 19553 (D. Mass. Jan.
26, 2017); United States v. Webb, 217 F. Supp. 3d 381, CRIMINAL ACTION NO.
06-10251-WGY, 2016 U.S. Dist. LEXIS 155558, 2016 WL 6647929, at *4 (D.
Mass. Nov. 9, 2016), the “novelty of a constitutional question” can satisfy the
cause prong. Id. at 15-16. A defendant has cause for procedural default where the
Supreme Court “explicitly” overruled a precedent. Id. at 17. The error in this case
which constitutes the conviction of Ortiz-Torres on an unconstitutional statute

23

affected his “substantial rights” and “seriously affect[ed] the fairness, integrity or
public reputation of judicial proceedings.” See United States v. Olano, 507 U.S.
725, 732 (1993) (internal quotation marks omitted).
CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the First Circuit and the District
Court to address the matters of the issues filed herein.
Done this { , day of October 2020.
Jonathan Ortiz-Torres
Register Number: 34557-069
Coleman Medium FCI
P.O. Box 1032
Coleman, FL 33521

24

